OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/KOSOVO’S
EFFORTS TO MITIGATE
ENVIRONMENTAL IMPACT IN
ITS PROJECT PORTFOLIO
AUDIT REPORT NO. 9-000-10-004-P
MARCH 9, 2010




WASHINGTON, DC
Office of Inspector General



March 9, 2010

MEMORANDUM

TO:                  USAID/Kosovo, Director, Patricia Rader

FROM:                IG/A/PA, Director, Steven H. Bernstein [Michael W. Clinebell for] /s/

SUBJECT:             Audit of USAID/Kosovo’s Efforts to Mitigate Environmental Impact in Its Project
                     Portfolio (Report No. 9-000-10-004-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report in finalizing the audit report and have included your response in
appendix II of the report.

The report contains eight recommendations for your action. Based on management comments
and documentation, the audit considers that a management decision has been reached for each
of the eight recommendations. Final action has been taken on one recommendation, and
determination of final action for the remaining seven recommendations will be made by the
Audit, Performance and Compliance Division upon completion of the planned corrective actions.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.govoig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective.................................................................................................................. 4

Audit Findings................................................................................................................. 5

          USAID/Kosovo Should Incorporate Environmental
          Assessment Requirements in Solicitations and Awards ....................................... 7

          USAID/Kosovo Needs to Improve Environmental
          Monitoring Procedures and Practices ................................................................... 9

          USAID/Kosovo Lacks Environmental Expertise .................................................. 11

          USAID/Kosovo Should Formalize the
          Environmental Working Group ............................................................................ 15

Evaluation of Management Comments....................................................................... 18

Appendix I – Scope and Methodology ........................................................................ 20

Appendix II – Management Comments ....................................................................... 22

Appendix III – Funding Levels for Projects Reviewed............................................... 26
SUMMARY OF RESULTS
Adverse environmental effects stemming from economic development are a fundamental
concern in the developing world. To help ensure adequate environmental oversight and
ensure that environmental considerations are integrated into the decision-making
process for all USAID-funded projects, programs, and activities, USAID implements Title
22, Part 216 of the Code of Federal Regulations, “Environmental Procedures” (22 CFR
216 [2009]) (see page 3).

USAID’s Office of Inspector General selected the USAID mission in Kosovo as the site
of the first in a series of audits to be conducted at selected missions worldwide to
evaluate the implementation of 22 CFR 216. USAID/Kosovo funds a broad array of
activities with varying levels of potential environmental impact. The audit focused on
nine USAID/Kosovo projects active between 2007 and 2009, with a total awarded
amount of approximately $71 million (see page 3).

Based on the audit team’s review of nine USAID/Kosovo projects, USAID/Kosovo is
achieving its goals and objectives related to mitigating environmental impacts. The audit
did not identify any significant adverse impacts as a direct result of USAID activities.
This is partly because Europe and Eurasia Bureau oversight is set up so that bureau
staff heavily vets activities with potential for environmental impacts prior to
implementation. In addition, although the mission manages a broad range of projects
that require environmental mitigation measures, projects with components that have a
significant impact on the environment are seldom undertaken. While there are
substantial environmental challenges in Kosovo, USAID’s development focus is on
market-based economic growth and democracy and governance, not on environmental
issues. According to mission staff, the broader environmental issues—including water
contamination, lack of solid waste and wastewater management, and industrial
contamination—cannot be directly addressed with current funding levels, and even with
higher funding levels, the mission likely would not focus on these issues (see page 5).

Although mission staff were aware of USAID’s environmental compliance requirements,
the audit found that USAID/Kosovo (1) did not always incorporate environmental
assessment requirements into the agreement documents or include environmental
compliance expertise as evaluation criteria for potential implementing partners (see page
7); (2) has not consistently collected environment baseline data and has not explicitly
incorporated reporting requirements into agreement and contracting documents or
included them in implementing partner annual work plans (see page 9); (3) is faced with
a lack of environmental expertise because of staffing issues at the mission, regional, and
bureau levels (see page 11); and (4) has not formalized and could achieve greater
benefit from its Environmental Working Group (see page 15). This report contains eight
recommendations to address these concerns.

In summary, the report recommends that USAID/Kosovo:

   •   Require environmental conditions and environmental compliance expertise to be
       addressed in solicitations, proposals, and subsequent awards (see page 9);




                                                                                        1
   •   Develop procedures to improve environmental baseline data collection prior to
       implementation, and to improve environmental monitoring and reporting during
       implementation (see page 11);

   •   Issue a formal request to the Europe and Eurasia Bureau for a regional advisor
       to reduce the risk of project delays and environmental impacts in Kosovo (see
       page 14); and

   •   Formalize and expand membership in the Environmental Working Group (see
       page 17).

USAID/Kosovo agreed with all eight recommendations. Based on management
comments, a management decision has been reached for each of the recommendations.
Final action has been taken on one recommendation, and determination of final action
for the remaining seven recommendations is pending (see page 18). Management
comments are included in appendix II.




                                                                                   2
BACKGROUND
Adverse environmental effects stemming from economic development are a fundamental
concern in the developing world. As USAID-funded programs are implemented across
the globe, it is imperative that the environmental impacts of those programs be carefully
considered and mitigated to the extent possible.             To help ensure adequate
environmental oversight, USAID implements Title 22, Part 216 of the Code of Federal
Regulations, “Environmental Procedures” (22 CFR 216 [2009]). 1 These procedures
ensure that environmental considerations are integrated into the decision-making
process for all USAID-funded projects, programs, and activities.

This regulation (1) assigns responsibilities within the Agency for assessing the
foreseeable environmental impacts of USAID’s actions, (2) requires that environmental
safeguards be incorporated into program planning and design, and (3) directs that
programs be continually monitored and modified when necessary to mitigate
environmental impact. In addition, it is USAID policy to assist host countries with
strengthening their capability to evaluate potential environmental effects of proposed
projects, and to develop effective environmental programs. USAID’s Automated
Directives System (ADS) 204, “Environmental Procedures,” provides policy and
directives and required procedures on how to apply 22 CFR 216.

Implementation of 22 CFR 216 is coordinated and enforced by a team of professional
environmental staff led by the Agency environmental coordinator and a network of
environmental advisors at the bureau, regional, and mission levels. While the
environmental officers provide support to program staff, ultimately it is the activity
managers’ responsibility to continually monitor and evaluate the environmental impact of
USAID activities. If properly implemented throughout the project cycle, 22 CFR 216 will
result in environmentally sound activities and the promotion of environmental policies
consistent with USAID’s development mandate.

USAID’s Office of Inspector General selected the USAID mission in Pristina, Kosovo
(see figure 1 on page 4), as the site of the first in a series of audits to be conducted at
selected missions worldwide to evaluate the implementation of 22 CFR 216.
USAID/Kosovo funds a broad array of activities with varying levels of potential
environmental impact.      As shown in appendix III, the audit focused on nine
USAID/Kosovo projects active between 2007 and 2009, with a total amount awarded
and obligated of approximately $71 million and $54 million, respectively, as of
September 30, 2009.




1
  USAID’s environmental procedures were developed and implemented after an incident in 1974
in which a USAID agriculture project in Pakistan supplied poorly trained field workers with a highly
concentrated pesticide. In the heat, five workers who were not wearing protective equipment
sprayed each other with the toxic pesticide and died. Following this incident, USAID was sued by
a U.S. nonprofit organization. Pursuant to a 1975 stipulation entered as an order of the U.S.
District Court for the District of Columbia, USAID agreed to prepare and publish a detailed
environmental impact statement on its pesticide activities and to publish regulations implementing
the conclusions of the environmental impact statement.


                                                                                                  3
                                   Figure 1: Map of Kosovo

USAID’s assistance to Kosovo began in 1999 following the conflict that expelled former
President of Yugoslavia Slobodan Milosevic and has continued through Kosovo’s
declaration of independence in February 2008. Since 1999, more than $1.2 billion in
U.S. assistance has been committed to the reconstruction of Kosovo and to building self-
governing institutions and a viable economy. Current activities include capacity building,
community development, minority integration, water infrastructure, school expansion,
and technical assistance related to health care and energy. Programs focused on
community development and minority integration often include a small-scale construction
or infrastructure improvement component with potential environmental concerns. Other
mission activities, particularly the water infrastructure and resettlement projects, also
have potential environmental concerns that must be considered and monitored over the
life of the project.

AUDIT OBJECTIVE
This audit was conducted at USAID/Kosovo as the first in a series of audits of USAID’s
efforts to mitigate environmental concerns in its project portfolio, pursuant to the Office of
Inspector General’s fiscal year 2009 audit plan. The audit was designed to answer the
following question:

•   Is USAID/Kosovo achieving its goals and objectives to mitigate environmental
    impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                            4
AUDIT FINDINGS
For the nine projects selected for review, USAID/Kosovo is achieving its goals and
objectives related to mitigating environmental impacts. The audit, which included site
visits at five of the project sites, did not identify any significant adverse impacts as a
direct result of USAID activities. This is partly because Europe and Eurasia Bureau
oversight is set up so that bureau staff heavily vets activities with potential for
environmental impacts prior to implementation. In addition, although the mission
manages a broad range of projects that require environmental mitigation measures,
projects with components that have a significant impact on the environment are seldom
undertaken. While there are substantial environmental challenges in Kosovo, USAID’s
development focus is on market-based economic growth and democracy and
governance, not on environmental issues. According to mission staff, the broader
environmental issues—including water contamination, lack of solid waste and
wastewater management, and industrial contamination—cannot be directly addressed
with current funding levels, and even with higher funding levels, the mission likely would
not focus on these issues.

Though USAID/Kosovo does not fund projects that specifically address the environment,
the audit found that mission staff generally were familiar with USAID’s environmental
policies and procedures. All activity managers and some implementing partners for the
projects included in this audit have attended environmental compliance training provided
by the acting bureau environmental officer. Furthermore, an Environmental Working
Group has been established at USAID/Kosovo to share knowledge and experience
among mission staff and some implementing partners.

Key aspects of USAID’s staffing and procedures that were examined to understand
USAID’s environmental compliance requirements are discussed below.

Environmental Staffing: Mission environmental officers are appointed by the Mission
Director. Mission environmental officers assist and advise mission staff and their
implementing partners and contractors in preparing documents on new activities and
monitoring compliance on ongoing activities, in accordance with the Code of Federal
Regulations (22 CFR 216, “Environmental Procedures”).                While the mission
environmental officer assists and advises on environmental requirements, the strategic
objective team leader and activity managers share the responsibility and accountability
for meeting environmental requirements. The ultimate responsibility is with the Mission
Director. Typically, mission environmental officer duties are only part of the full range of
tasks of a USAID staff position.

Regional environmental advisors are typically based in select missions and support all
the field offices in their geographic regions. Regional environmental advisors provide
supplementary professional support, training, compliance auditing, compliance
evaluations, and regional coordination on 22 CFR 216 matters to Mission Directors,
strategic objective teams, activity managers, and mission environmental officers.

Bureau environmental officers are based in Washington, DC, and oversee and monitor
compliance with 22 CFR 216 across all operating units in the bureau. The bureau
environmental officer decides and approves all 22 CFR 216 documents and ensures that


                                                                                          5
all staff in his or her bureau are aware of and trained in 22 CFR 216 procedures and
standards.

Environmental Procedures: The Initial Environmental Examination is the first step in
USAID’s environmental assessment process. The Initial Environmental Examination is a
document that details the effects of a proposed action on the environment. It evaluates
the program activities with respect to environmental impact potential and establishes
mitigation actions, including the monitoring and evaluation required from project design
through implementation. The Initial Environmental Examination also determines the
threshold decision, which is a formal agency assessment that determines whether a
proposed agency action is a major action significantly affecting the environment.
Threshold decisions are divided into the following categories:

   •   Categorical Exclusion (no risk of environmental impact)
   •   Negative Determination without Conditions (no impacts)
   •   Negative Determination with Conditions (some risk of environmental impact)
   •   Positive Determination (significant risk of environmental impact)
   •   Deferral (activity is not developed enough to make a determination)

USAID/Kosovo staff develops Initial Environmental Examinations. If sufficient detail is
available at the time of development of the Initial Environmental Examination, this
document also establishes environmental baseline data to be collected before activities
commence.

Environmental Review documents are completed by implementing partners when
specific project locations and activities are further defined after the contract is awarded
and more detailed analysis is needed. These documents can include a variety of
assessments, but they are meant to determine the scope and extent of additional
environmental evaluation, mitigation, and monitoring necessary to fulfill Federal
environmental requirements.

Environmental Mitigation and Monitoring Plans detail the measures required by the Initial
Environmental Examination or the Environmental Review documents that will be
implemented to lessen (or mitigate) any potential environmental impacts of an activity.
These plans determine indicators or criteria for monitoring their implementation and
effectiveness, and lay out who is responsible for mitigation and monitoring, as well as
the frequency with which mitigation and monitoring data will be reported to mission staff.

Although compliance with USAID’s environmental requirements is mandatory, the
internal processes by which missions and strategic objective teams must meet these
requirements are largely unspecified. Each strategic objective team or operating unit is
expected to develop its own processes or system.

Audit Findings: While USAID/Kosovo has managed to avoid adverse impacts to the
environment resulting from its activities, in order to reduce the risk of adverse impacts in
the future, this audit found several areas where improvements are needed. Specifically,
USAID/Kosovo (1) did not always incorporate environmental assessment requirements
into the agreement documents or include environmental compliance expertise as
evaluation criteria for potential implementing partners (see page 7); (2) has not
consistently collected environment baseline data and has not explicitly incorporated



                                                                                          6
reporting requirements into agreement and contracting documents or included them in
implementing partner annual work plans (see page 9); (3) is faced with a lack of
environmental expertise because of staffing issues at the mission, regional, and bureau
levels (see page 11); and (4) has not formalized and could achieve greater benefit from
its Environmental Working Group (see page 15).

USAID/Kosovo Should Incorporate
Environmental Assessment Requirements
in Solicitations and Awards

 Summary:       USAID guidance requires that activity managers ensure that
 environmental assessment requirements are met during the design process and
 are incorporated into solicitation and award documents to ensure that sufficient
 resources are allocated. However, USAID/Kosovo did not always incorporate
 these requirements into the agreement documents or include environmental
 compliance expertise as evaluation criteria for potential implementing partners.
 This occurred because mission staff believed that attaching the Initial
 Environmental Examination to the solicitation was sufficient, and that environmental
 compliance expertise was secondary to the larger assistance goals. Without these
 elements incorporated into the solicitations and awards, implementing partners
 were sometimes unaware of the environmental requirements that could affect
 staffing, budget, and program design.

Automated Directives System (ADS) 204.3.4.a.6 and 303.3.6.3.e require incorporating
the environmental assessment requirements outlined in the environmental evaluation
documents into implementation instruments for programs, projects, activities, or
amendments. ADS 204.3.8 states that strategic objective teams and activity managers
must consider the environmental findings and recommendations made in the approved
environmental evaluation documents when designing and approving funding for a
program or activity. The contracting officer or agreement officer must incorporate these
requirements into any contracts, grants, cooperative agreements, or other mechanisms
used to implement the activity.

The audit found that USAID/Kosovo did not adequately incorporate Initial Environmental
Examination assessment requirements into solicitations and awards, and the
solicitations did not include environmental compliance expertise of the implementing
partners as a requirement for partner selection.

The process of ensuring proper environmental oversight for USAID programs begins
during the program design phase. Potential impacts of a proposed action on the
environment and mitigation and monitoring requirements should be determined up front
so the responsibilities of project implementers are explicitly enumerated in the
solicitations and subsequent awards prior to project implementation. USAID bureau
environmental staff told the auditors that the Initial Environmental Examination should be
completed prior to the USAID solicitation so the conditions can be included in the
solicitation and bidders can address associated cost and staffing in their proposals.
Furthermore, in instances when the Initial Environmental Examination cannot be
completed prior to the solicitation, the implementing partners should be informed of the



                                                                                        7
requirements, and the requirements should be included in the agreement and
contracting documents.

Of the nine projects audited, only one solicitation document had incorporated the
requirements outlined in the Initial Environmental Examination into the solicitation itself.
The remaining eight solicitation documents either had a general reference to 22 CFR
216 or contained no compliance language at all. The Initial Environmental Examination
was not completed prior to the solicitation for four of these remaining eight projects.

In addition, the USAID solicitation documents establish the criteria for evaluating the
proposals received from potential implementing partners. The criteria identify the
significant factors that the bidders should address in their proposals and set the standard
against which all proposals will be evaluated. None of the USAID/Kosovo solicitations
audited had incorporated evaluation criteria related to environmental compliance. Two
of nine solicitations contained evaluation criteria with general environment references,
including “approach identifies and addresses cross-cutting issues such as gender and
environment,” and “[project design incorporates] long-term environmental soundness,
social soundness, and economic sustainability.” However, environmental compliance
expertise was not incorporated, even for the community resettlement project, which 22
CFR 216 categorizes as a class of action that generally has a significant effect on the
environment.

Mission staff stated that attaching the Initial Environmental Examination was sufficient to
meet requirements, and the contracting officer would be responsible for putting any
specifics from the Initial Environmental Examination into the contract documentation.
However, the contracting officer for Kosovo, located in Budapest, Hungary, informed the
audit team that the activity manager is responsible for specifying the exact language
from the environmental evaluation documents that should be extracted and put into the
solicitation, and for alerting the contracting officer accordingly. The contracting officer
said that he was not familiar enough with each of the programs to know what specific
sections of the evaluations should be included in the solicitations.

USAID/Kosovo is focused on economic growth, democracy and governance, and conflict
mitigation. Activities that require environmental oversight are usually a vehicle to further
an assistance goal and are not the goal itself; for instance, infrastructure improvements
are leveraged to better integrate a minority population. Therefore, implementing
partners are generally chosen based on expertise related to the mission’s assistance
goals, and environmental compliance expertise often gets overlooked. As a result, none
of the winning proposals from the implementing partners specifically addressed how the
requirements set forth in the Initial Environmental Examination would be implemented.
Only two of nine proposals assigned specific staff to environmental compliance needs.
Of the nine award documents, only one contained specific Initial Environmental
Examination requirements, three referenced the Initial Environmental Examination, three
referenced 22 CFR 216, and two contained no environmental compliance language at
all.

Furthermore, some implementing partners were unaware of environmental requirements
that could affect budget, staffing, and program design. One implementing partner stated
that it was unaware of the Initial Environmental Examination until the week prior to its
interview with the auditors and had not been collecting the medical waste data required
by the Initial Environmental Examination. Another implementing partner was aware of


                                                                                          8
the existence of the Initial Environmental Examination, but not the specific requirements
for the project, including the need to collect baseline data related to sewer and septic
systems and the need for dedicated staff for environmental compliance responsibilities.

To address this matter, this audit makes the following recommendations:

   Recommendation 1: For activities with Threshold Decisions of Negative
   Determination with Conditions and Positive Determination, we recommend that
   USAID/Kosovo establish and implement procedures to require activity managers
   to provide the agreement officer or contracting officer the specific environmental
   assessment requirements from the Initial Environmental Examination to be
   included in the solicitation documents, and include environmental compliance
   expertise in the evaluation criteria for selecting implementing partners.

   Recommendation 2: For activities with Threshold Decisions of Negative
   Determination with Conditions and Positive Determination, we recommend that
   USAID/Kosovo establish and implement procedures to require implementing
   partners to respond to environmental assessment requirements in their proposal,
   detailing staff and budget necessary to address environmental assessment and
   monitoring concerns associated with the project.

   Recommendation 3: For activities with Threshold Decisions of Negative
   Determination with Conditions and Positive Determination, we recommend that
   USAID/Kosovo establish and implement procedures to require activity managers
   to include environmental assessment and monitoring requirements in
   agreements and contracts signed by implementing partners.

USAID/Kosovo Needs to Improve
Environmental Monitoring
Procedures and Practices

Summary: USAID guidance requires environmental monitoring over the course of
project implementation, including collection of environment baseline data at the start.
However, USAID/Kosovo has not consistently collected environment baseline data
and reporting requirements have not been explicitly incorporated into agreement and
contracting documents or included in implementing partners’ annual work plans.
Activity managers and implementing partners were either unaware of or unclear on
the requirements.      Because environmental data are not being sufficiently
documented, USAID/Kosovo is vulnerable to overlooking environmental concerns
that may already exist at project sites or could arise during project implementation.

According to 22 CFR 216.3.a.8, to the extent feasible and relevant, projects and
programs with potential for environmental impact should be designed to include
measurement of any changes in environmental quality, positive or negative, during their
implementation.       This requires the collection of baseline data before project
implementation. ADS 204.3.4.b states that mission staff is responsible for ongoing
monitoring and evaluation of whether the environmental components designed for the
activity resulting from the 22 CFR 216 process are being implemented effectively. This



                                                                                          9
includes identifying and addressing new or unforeseen environmental consequences
arising during implementation.

The audit found that USAID/Kosovo did not consistently require and collect baseline
environmental data prior to the start of project implementation, did not complete
Environmental Mitigation and Monitoring Plans, and was not receiving regular
environmental monitoring updates from implementing partners.

Baseline environmental data requirements can be outlined in the Initial Environmental
Examination or can be determined at the Environmental Review phase once more
detailed data are available on project location and specific activities. For eight of nine
projects audited, requirements for environmental baseline data were included in various
formats as part of the Initial Environmental Examination.              In addition, some
Environmental Review templates provided to the implementing partners had a “Baseline
Environmental Conditions” section. However, none of the completed Environmental
Review documents included specific baseline environmental conditions sections.
General background information about the projects was included in the documents, but
baseline condition information was either incomplete (in relation to the Initial
Environmental Examination requirements) or not addressed. This continues to be an
issue. Eleven Environmental Review documents were recently submitted for one
project, and according to bureau environmental staff the environmental baseline data
were incomplete for all 11 documents.

None of programs audited had Environmental Mitigation and Monitoring Plans.
According to USAID environmental training materials, systematic and accountable
implementation of environmental conditions is almost impossible without these plans.
Subsequently, implementing partners have not been providing USAID/Kosovo with
written updates on their observations related to environmental mitigation and monitoring.
Implementing partners communicate with activity managers on a regular basis in an
informal manner, usually verbally, on the day-to-day progress of project implementation.
However, mission staff assumes that “no news is good news” in relation to
environmental oversight. In other words, the activity managers assume that a lack of
reporting on environmental observations by the partner means that there have been no
issues.

USAID/Kosovo has not consistently required or collected baseline environmental
conditions because activity managers and implementing partners either were unaware of
the baseline data collection requirements or felt that the background information
provided in the Environmental Review documents was sufficient to meet the
requirements. In addition, existing processes and requirements for Environmental
Mitigation and Monitoring Plans were unclear to mission staff and implementing
partners. Some mission staff interviewed thought that the recommended mitigation and
monitoring sections in the Environmental Review documents were considered
Environmental Mitigation and Monitoring Plans. Others recognized that these plans
were not being required or completed. Specific baseline data requirements and
environmental monitoring requirements were not included in the solicitation, awards, or
initial work plans for the nine projects audited. As a result, USAID/Kosovo is vulnerable
to overlooking environmental concerns that may arise during project implementation.

Establishing environmental baseline conditions is necessary for USAID to make
informed decisions, evaluate risk or liability due to existing environmental concerns at a


                                                                                       10
site or facility, and sufficiently mitigate subsequent environmental impacts. If issues
related to environmental oversight are informally reported, they may not be adequately
observed. Activity managers interviewed could not identify any instances in which the
implementing partner relayed environmental observations of either impact or no impact.
However, the acting bureau environmental officer observed several issues during field
trips to the project sites, including a scrap metal pile near a water source and poor slope
and drainage conditions during road construction. Activity managers were unaware of
these issues because implementing partners were neither reporting them verbally nor
documenting them in quarterly reports.

To address this concern, this audit makes the following recommendations:

   Recommendation 4: For activities with Threshold Decisions of Negative
   Determination with Conditions and Positive Determination, we recommend that
   USAID/Kosovo include a clause in its contracts and assistance agreements to
   require distinct language in the implementing partners’ annual work plans stating
   how the partner will address environmental baseline data requirements as
   outlined in the Initial Environmental Examination and/or as required for the
   Environmental Review documents.

   Recommendation 5: For activities with Threshold Decisions of Negative
   Determination with Conditions and Positive Determination, we recommend that
   USAID/Kosovo establish procedures to require implementing partners to provide
   activity managers with Environmental Mitigation and Monitoring Plans as part of
   their annual work plans.


USAID/Kosovo Lacks
Environmental Expertise

  Summary: ADS 204 outlines roles and responsibilities that are necessary to
  implement USAID’s environmental procedures. Owing to staffing issues at the
  mission, regional, and bureau levels, USAID/Kosovo is faced with a lack of
  environmental expertise. Deficiencies in environmental resources and expertise
  available to the mission and implementing partners have impacted the
  implementation of several projects.

ADS Chapter 204 describes roles, responsibilities, and decision-making authorities
regarding USAID’s environmental procedures. ADS 204.3.5 states that it is the mission
environmental officer’s role to assist and advise activity managers and their
implementing partners in preparing environmental documents and monitoring
environmental compliance on ongoing activities. ADS 204.3.5 tasks the regional
environmental advisor with providing supplementary professional support, training, and
regional coordination on environmental matters to Mission Directors, mission staff, and
mission environmental officers. Per ADS 204.2.e, bureau environmental officers are
responsible for overseeing the effective implementation of environmental procedures
throughout all missions and operating units in their bureau. The Agency environmental
coordinator oversees Agencywide implementation of environmental procedures to
ensure that intended results are achieved.



                                                                                        11
ADS 204 also requires mission environmental officers and regional environmental
advisors to liaise with the bureau environmental officer on issues affecting their
operating units and missions.          Mission environmental officers and regional
environmental advisors are responsible for advising mission staff on how to obtain
additional environmental expertise to assist in their environmental responsibilities. In
addition, ADS 204.2.a states that allocating adequate staffing and financial resources to
fulfill Agency environmental policy is the responsibility of the bureau. The mission is
responsible for providing the staff and financial resources to its management units to
implement the approved strategies consistent with the Agency’s environmental
procedures.

Implementation of USAID’s environmental procedures should be coordinated and
enforced by the network of individuals outlined in ADS 204 and, when necessary,
supplemented by additional resources available to missions. However, the audit found
that access to environmental resources and expertise is lacking at USAID/Kosovo.

Contrary to USAID guidance, USAID/Kosovo and other missions in the Europe and
Eurasia region are currently without a full-time regional environmental advisor or full-time
bureau environmental officer. The acting bureau environmental officer has been serving
both roles since 2005 because of staffing issues at the bureau level. He provides all
USAID environmental compliance training for mission staff and implementing partners in
the Europe and Eurasia region. There is no deputy bureau environmental officer and no
deputy regional environmental advisor to fill the positions in the event the acting
individual is unavailable.

According to the mission environmental officer handbook, a mission environmental
officer’s first contact for advice and assistance on technical matters should be the
regional environmental advisor. If additional technical advice is needed or if the regional
environmental officer is unavailable, the mission environmental officer should then
request assistance from the bureau environmental officer. However, the only bureau
environmental personnel available to the mission environmental officer are the acting
bureau environmental officer and the database manager, both based in Washington,
DC. The mission environmental officer asserted that regional support would be valuable
for general environmental advice, site visits, and monitoring. Activity managers and
implementing partners agreed that an advisory role is missing at the mission and that
consistently available regional help would increase efficiency.

As outlined in ADS 204, USAID/Kosovo’s mission environmental officer is the main point
of contact for day-to-day environmental procedures at the mission. USAID mission
environmental compliance best practices call for the mission environmental officer to
have skills and expertise to identify potential environmental components for mission
activities; however, the current mission environmental officer does not have an
environmental background and had no prior environmental experience before being
selected to fill the position. USAID/Kosovo’s mission environmental officer is also an
activity manager, feels that she does not have sufficient time to dedicate to the
environmental role, and is not regularly conducting site visits in that capacity.

Though USAID policy does not require the mission environmental officer to have an
environmental background, it is a best practice. USAID/Kosovo is faced with a deficit in
available environmental expertise in the absence of a full-time regional environmental


                                                                                         12
advisor, a full-time bureau environmental officer, and a mission environmental officer
with a strong environmental background. The acting bureau environmental officer
estimates spending 60 percent of his time managing USAID/Kosovo and one other
mission, although only 10 to 15 percent of the workload should come from these two
countries.

Additionally, ADS 204 states that mission environmental officers and regional
environmental advisors are responsible for advising mission staff on how to obtain
additional environmental expertise to assist in their environmental responsibilities, and
that allocating adequate staffing and financial resources to fulfill USAID environmental
policy is the responsibility of the bureau. Indefinite quantity contracts for specialists in
sectors with complex environmental concerns such as agriculture, infrastructure, and
industry are available to missions; however, activity managers were not aware that such
resources existed and were concerned that even if these resources were available to
them, the cost of a third-party contractor would be prohibitive.

As referenced in a prior finding (see page 8), USAID/Kosovo’s implementing partners
are generally chosen based on expertise related to mission assistance goals, and do not
always have sufficient in-house environmental expertise to satisfy USAID requirements.
Some implementing partners receive USAID environmental training when it is offered by
the acting bureau environmental officer; however, not all implementing partners’
employees have received training, and individuals who have received training are not
always involved in the projects with potential to impact the environment.

Several projects have been affected by a lack of environmental compliance expertise at
the regional level, at the mission, and among implementing partners:

   •   A project to relocate 50 families from an area highly contaminated with lead was
       recently halted by the acting bureau environmental officer. The mission
       environmental officer, activity manager, and the implementing partner felt that the
       need to move the families out of the highly contaminated area superseded
       concerns related to putting them in areas with lower levels of lead contamination.
       Though the acting bureau environmental officer indicated at the onset of the
       program that a full-scale environmental assessment would be required because
       of known contamination at the resettlement site and the nature of the activity, the
       implementing partner and mission staff pursued a less intense environmental
       review.    The implementing partner was not specialized in environmental
       procedures and took more than 5 months to complete the initial review. This
       review ultimately proved to be inadequate and USAID bureau environmental staff
       deemed mitigation measures to be insufficient. The project will remain on hold
       until an appropriate environmental assessment, as agreed upon by bureau
       environmental officers and the Agency environmental coordinator, is completed.

   •   As indicated in the Initial Environmental Examination for a private enterprise
       project, specific environmental reviews, including Environmental Due Diligence
       and Pollution Prevention Assessments, may be required for activities involving
       production and/or processing industrial facilities (including agro-processing in
       dairy or other projects). Through this project, USAID has funded activities at a
       dairy collection site, a yogurt plant, and a potato-processing facility; however, no
       specific environmental reviews had been completed at the time of the audit. Both
       the implementing partner and USAID mission staff thought that Environmental


                                                                                         13
       Review checklists were sufficient. The acting bureau environmental officer did
       not concur and suspended the three projects until the required reviews are
       completed.

   •   The scope of technical assistance provided by USAID to the Kosovo Energy
       Corporation has broadened significantly since the project was conceived.
       Technical assistance originally focused on preparing distribution assets for
       privatization. However, owing to the poor condition of the power generation
       plants in the country, USAID’s implementing partner is providing management
       advice related to operation of the power generation facilities on a daily basis,
       including advice related to activities that may negatively impact the environment,
       such as possible creation of a lake in the depleted coal mine for plant cooling
       purposes, disposal of coal ash, and expansion of a coal mine. The implementing
       partner and USAID/Kosovo staff are interpreting 22 CFR 216 to apply only if
       USAID is funding specific activities and commodities. However, when technical
       assistance is provided for programs that include activities directly affecting the
       environment, the guidance does apply.

   •   Owing to concerns with project activities, considerable coordination with the
       acting bureau environmental officer and the mission was required when
       developing environmental guidelines for a small-scale water project, and
       development and approval of the documents took longer than expected. The
       activity manager assigned to this project did not have water infrastructure
       expertise, which may have been a contributing factor.

Recently, two USAID staff members with environmental expertise joined the mission.
Both had formerly filled environmental roles at other USAID missions, and one has been
formally appointed the deputy mission environmental officer for Kosovo. However, both
have other high-priority mission responsibilities. One is the office director for the
Economic Growth Office, while the other is the senior energy advisor on a large and
complex project.      Therefore, although the increase in staff with environmental
experience should improve the situation at USAID/Kosovo, the audit team has concerns
that the mission will continue to experience project delays and increased risk of
adversely impacting the environment owing to lack of environmental resources and
expertise.

The issues discussed in this finding might have been prevented or ameliorated at an
earlier stage if a regional environmental advisor was consistently available to
USAID/Kosovo activity managers and implementing partners, as recommended by
Agency guidance and best practice. To address these issues, this audit makes the
following recommendation:

   Recommendation 6: We recommend that USAID/Kosovo formally request that
   the Europe and Eurasia Bureau establish a full-time, regionally based regional
   environmental advisor to reduce the risk of project delays and environmental
   impacts in Kosovo.




                                                                                      14
USAID/Kosovo Should Formalize
the Environmental Working Group

  Summary: It is USAID’s policy to assist host countries to strengthen their
  capabilities to appreciate and effectively evaluate the potential environmental
  effects of proposed development strategies and projects. Although USAID/Kosovo
  has established an Environmental Working Group, the Environmental Working
  Group has not been used as effectively as it could be to share best practices and
  build host country capacity. The Environmental Working Group has not been
  formalized, and without formalized processes and internal controls, USAID/Kosovo
  cannot be certain that intended results are being achieved.

According to 22 CFR 216.1.b.2, it is USAID policy to assist host countries to strengthen
their capabilities to appreciate and effectively evaluate the potential environmental
effects of proposed development strategies and projects. Although USAID/Kosovo does
not fund programs with the specific objective of improving environmental awareness and
capacity, an Environmental Working Group has been informally established at
USAID/Kosovo to address environmental issues related to mission activities.

As explained by mission staff, the principal responsibility of the Environmental Working
Group is to review activity-level environmental documents submitted by implementing
partners for parts of projects that have the potential to impact the environment. Before
being approved by the mission environmental officer and activity manager, the
environmental documents are submitted to the Environmental Working Group for review
and comment. The mission environmental officer and activity manager do not always
have backgrounds in the technical area of the project under review, and may not be able
to identify potential environmental concerns or mistakes made by implementing partners
in the development of the documents. Involving the Environmental Working Group in the
review process enables group members to share their relevant experience and expertise
in an effort to compensate for knowledge gaps.

The Environmental Working Group has increased some members’ awareness of
environmental issues and has resulted in revisions to Environmental Review documents;
however, the audit found that the Environmental Working Group is not achieving
maximum benefit for sharing best practices and building host country capacity, and has
sometimes been inappropriately relied upon to evaluate and approve Environmental
Review documents from implementing partners. The audit uncovered the following
areas of concern regarding the effectiveness of the Environmental Working Group:

   •   Processes for submitting, reviewing, and tracking documents are informal and
       undefined.

   •   Environmental Working Group membership is limited to mission staff and select
       representatives from implementing partners, and does not include key individuals
       from the host country.

   •   There are no controls to ensure that Environmental Working Group members are
       actually reviewing documents, and there are no requirements for members to
       comment. Based on e-mail correspondence from the working group and


                                                                                      15
       interviews with mission staff and implementing partners, not enough time is
       allocated to allow for critical review, and comments on the review documents are
       submitted sporadically or not at all.

   •   According to interviews with mission staff and implementing partners, there is a
       significant difference in quantity and quality of the comments provided by the
       Environmental Working Group and those provided by the acting bureau
       environmental officer. In several instances, the acting bureau environmental
       officer required significant changes to the activity-level environmental document
       after it had gone through the Environmental Working Group review process, had
       received few or no comments, and was approved at the mission level.

   •   In some cases, the environmental documents under review are for activities in
       sectors with heightened potential to cause environmental impact, such as water,
       energy, and infrastructure.    Though some Environmental Working Group
       members have experience implementing USAID’s programs, not all members
       have an environmental background or environmental compliance training, and
       outside specialists are not involved in the Environmental Working Group or
       review process.

   •   The Environmental Working Group is conducted through e-mail correspondence.
       The virtual structure is not conducive to continual dialogue or the discussion of
       broader issues and lessons learned. Discussion topics are limited to the
       document under review, and dialogue is initiated only by the submission of a new
       activity-level environmental document.

USAID/Kosovo has incorporated some innovative environmental aspects into several
program designs. For example, a pilot green school was included as part of the school
expansion project and a recycling program was included as part of the private enterprise
project. However, there is no mechanism to systematically consider ways to incorporate
environmental compliance into project design strategically or innovatively. The
Environmental Working Group could be used as a forum to consider ways to develop
linkages between environmental protection and development goals for mission
programs. The idea for the pilot green school was developed over the course of
discussions between the activity manager and the implementing partner during the
project design phase. The Environmental Working Group could be leveraged in the
same manner to consider similar design considerations for all mission programs, such
as establishing baseline levels of existing pesticide use in test crops and monitoring use
during implementation to show that USAID involvement may have actually lessened
pesticide use for the private enterprise project.

Mission staff established the Environmental Working Group based on a suggestion
made by the bureau environmental officer, and did not see the need to formalize the
Environmental Working Group since it is a best practice and not a USAID requirement.
However, the above concerns stem from the fact that the Environmental Working Group
is not formalized; there are no defined processes, responsibilities or requirements,
internal controls, or membership criteria. As a result, the Environmental Working Group
is not being used effectively as a mechanism for reviewing activity-level environmental
documents, sharing best practices, or building host country capacity.




                                                                                       16
To address these issues, this audit makes the following recommendations:

   Recommendation 7:            We recommend that USAID/Kosovo formalize the
   Environmental Working Group to identify its objective as a mechanism to share
   best practices and build host country capacity, and to define processes,
   responsibilities, internal controls, meeting frequency, and membership.

   Recommendation 8: We recommend that the USAID/Kosovo Environmental
   Working Group develop a list of and extend membership to appropriate Kosovo
   academia, Kosovo Government representatives, and members of local
   institutions to build host country environmental capacity.




                                                                                   17
EVALUATION OF
MANAGEMENT COMMENTS
In response to this report, USAID/Kosovo agreed with all eight recommendations.
Based on management comments, a management decision has been reached for each
of the recommendations. Final action has been taken on one recommendation, and
determination of final action for the remaining seven recommendations is pending. In
addition to the written comments we received from management as shown in appendix
II, USAID/Kosovo provided comments and suggestions on the narrative of the report that
have been considered and incorporated, as appropriate, in the final audit report. An
evaluation of management comments for each recommendation is discussed below.

USAID/Kosovo suggested that recommendations 2, 3, and 5 should apply only to Initial
Environmental Examinations that are either Threshold Decision of Negative
Determination with Conditions or Positive Determination (recommendations 1 and 4
already contained this wording). The audit team concurs, and the final audit report has
been modified to include this specification.

   •   USAID/Kosovo agreed with recommendation 1.                       To address the
       recommendation, the mission has already begun to require that activity
       managers for new procurements provide the agreement or contracting officer
       with the specific requirements from the Initial Environmental Examination to be
       included in solicitation documents, and include environmental compliance
       expertise in the evaluation criteria for selecting implementing partners

   •   USAID/Kosovo agreed with recommendation 2.                    To address this
       recommendation, the mission has already begun requiring implementing partners
       for new procurements to respond to environmental assessment requirements in
       their proposal, detailing the staff and budget necessary to address environmental
       assessment and monitoring concerns associated with the project.

   •   In response to recommendation 3, USAID/Kosovo has begun to require activity
       managers to include environmental assessment monitoring requirements in new
       agreements and contracts signed by implementing partners. The mission will
       also review existing grants and contracts to determine if they need to be
       amended and will work with their agreements and contracting officers to make
       necessary amendments by April 2010.

   •   In response to recommendation 4, the mission will begin including a clause in all
       new contracts and assistance agreements to require language in annual work
       plans stating how the partners will address environmental baseline data
       requirements.

   •   In response to recommendation 5, USAID/Kosovo will begin requiring
       implementing partners to provide activity managers with Environmental Mitigation
       and Monitoring Plans as part of their annual work plans.



                                                                                     18
In response to recommendations 1 through 5, the mission will institutionalize these
requirements in two Mission Orders that the mission expects to finalize by the end of
March 2010. Based on the mission’s response, management decisions have been
reached for recommendations 1 through 5 and determination of final actions will be
made by the Audit, Performance and Compliance Division upon completion of the action.

   •   USAID/Kosovo fully agrees with and supports recommendation 6, and submitted
       an action memorandum for the acting Assistant Administrator for the Europe and
       Eurasia Bureau to establish a full-time, regionally based environmental advisor to
       assist the mission with implementation of projects with potential for significant
       environmental impact. Based on the mission’s response, final action has been
       reached, and this recommendation is closed.

   •   In response to recommendation 7, USAID Kosovo agrees that the Environmental
       Working Group should be formalized to define processes, responsibilities,
       internal controls, meeting frequency, and membership. The Environmental
       Working Group will be formalized by a Mission Order that the mission expects to
       finalize by the end of March 2010. Based on the mission’s response, a
       management decision has been reached, and determination of final action will be
       made by the Audit, Performance and Compliance Division upon completion of
       the action.

   •   USAID/Kosovo agreed with recommendation 8 and in response will develop a list
       and extend membership to appropriate host country academia, government
       representatives, and members of local institutions by the end of February 2010.
       The expanded membership will be formalized in a Mission Order that the mission
       expects to finalize by the end of March 2010. Based on the mission’s response,
       a management decision has been reached, and determination of final action will
       be made by the Audit, Performance and Compliance Division upon completion of
       the action.




                                                                                      19
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
USAID/Washington conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions, based
on our audit objective.

The objective of this audit was to determine if USAID/Kosovo is achieving its goals and
objectives to mitigate environmental concerns throughout the project life cycle. Audit
fieldwork was conducted at USAID/Kosovo from September 8 to September 25, 2009,
and at USAID/Washington through November 20, 2009. The audit covered the period
from October 1, 2007, to September 30, 2009; however, we considered it appropriate to
incorporate information pertaining to original contracts and original environmental
documentation for some projects that began prior to the period under audit.

In planning and performing the audit, we assessed USAID/Kosovo’s controls regarding
its efforts to mitigate environmental impact. Specifically, we obtained an understanding
of and evaluated (1) environmental documentation, including Initial Environmental
Examinations and Environmental Review and Assessment Checklists; (2) contract and
agreement documents; (3) program documents, such as work plans, quarterly reports,
and monitoring plans; (4) best management practices; and (5) the monitoring of and
interaction with implementing partners by contracting officer’s technical
representatives/agreement officer’s technical representatives (activity managers). We
interviewed key USAID/Washington and USAID/Kosovo environmental staff,
USAID/Kosovo personnel, and implementing partners. We completed fieldwork at
USAID/Kosovo in Pristina and visited several project sites in surrounding areas.

The audit team reviewed nine projects to answer the audit objective. The total amount
awarded and obligated for the projects reviewed is approximately $71 million and $54
million, respectively, as of September 30, 2009 (see appendix III).

Methodology
To answer our audit objective, we met with key USAID environmental personnel at
USAID/Kosovo and USAID/Washington, USAID/Kosovo mission staff, and implementing
partners. We reviewed relevant documentation provided by USAID/Kosovo and
implementing partners, such as contract and agreement documents, environmental
documentation, work and monitoring plans, and program quarterly reports. We also
reviewed applicable laws, best practices, and guidelines pertaining to USAID/Kosovo’s
environmental regulations, specifically Code of Federal Regulations (22 CFR 216,
“Environmental Procedures”) and Automated Directives System 204. We attended
USAID-sponsored training to gain additional understanding of environmental policies,
procedures, and best practices specific to USAID programs.




                                                                                       20
                                                                              APPENDIX I


To assess USAID/Kosovo’s efforts to mitigate environmental impact, we reviewed
relevant documentation provided by the mission and implementing partners. While in
Washington, we reviewed project-specific environmental documentation and evaluated
contract and agreement documents for corresponding environmental compliance
language. We compared these documents with work and monitoring plans, quarterly
reports, and other project documents. At the mission, we conducted interviews with key
USAID/Kosovo environmental staff, activity managers, and implementing partners. We
then evaluated testimonial evidence in conjunction with best practices, relevant
environment and project documents, USAID environmental regulations, and site visit
observations.

We assessed implementing partners’ monitoring practices on environmental impact by
interviewing officials of these organizations and reviewing work plans, quarterly reports,
and other project documents. We also determined the level of monitoring provided by
activity managers and USAID environmental staff over implementing partners through
interviews and by reviewing relevant documentation, including available site visit reports.

We concluded that the absence of significant environmental impact is strong evidence
that USAID/Kosovo is achieving its goals and objectives to mitigate environmental
impact. No significant impact was verified through interviews with mission personnel,
Agency environmental staff, and implementing partners, or by reviewing relevant
documentation prepared by the mission and implementing partners. We conducted site
visits for further confirmation that USAID/Kosovo’s activities have not had significant
impact on the environment.

As of September 30, 2009, there were 38 active projects at USAID/Kosovo with a total
amount awarded and obligated of approximately $192 million and $154 million,
respectively. The nine projects included in this audit were selected judgmentally, and
results of the sample tested cannot be projected to the population. These nine projects
represent the mission’s diverse project portfolio and capture consideration of
environmental concerns in a variety of program areas, including water, education,
private enterprise, energy, and community development. We wanted to be sure that our
selection represented a variety of threshold decisions, including Categorical Exclusions,
Deferrals, Negative Determination with Conditions, and Positive Determinations. It was
also important to review projects at varying stages of implementation to observe mission
environmental procedures from project design to closeout. Additional selection criteria
included likelihood of causing significant environmental impact and environmental
mitigation and monitoring requirements.




                                                                                        21
                                                                             APPENDIX II



MANAGEMENT COMMENTS




MEMORANDUM


TO:            IG/A/PA, Director, Steven H. Bernstein

FROM:          USAID/Kosovo Acting Mission Director, Susan Fritz /s/

DATE:          February 12, 2010

SUBJECT:       Audit of USAID/Kosovo’s Efforts to Mitigate Environmental Impact in Its
               Project Portfolio (Report No. 9-00-10-00X-P)

______________________________________________________________________


Thank you for the opportunity to provide USAID/Kosovo’s written comments to the
subject report. We are pleased with the auditor team’s conclusion that “USAID/Kosovo
is achieving its goals and objectives related to mitigating environmental impacts,” and
that the audit team did not find any significant adverse impacts as a direct result of
USAID activities. Below we provide USAID/Kosovo’s position on each recommendation,
followed by comments and suggestions on the narrative of the report.

USAID/Kosovo Position on Each Recommendation

Recommendation 1: For activities with Threshold Decisions of Negative Determination
with Conditions and Positive Determination, we recommend that USAID/Kosovo
establish and implement procedures to require activity managers to provide the
agreement officer or contracting officer the specific environmental assessment
requirements from the Initial Environmental Examination to be included in the solicitation
documents, and include environmental compliance expertise in the evaluation criteria for
selecting implementing partners.

        USAID/Kosovo Response: USAID/Kosovo accepts and agrees with this
        recommendation. We have already begun to require this for all new
        procurements in which the Initial Environmental Examination is Threshold
        Decision of Negative Determination with Conditions or Positive Determination.
        We will institutionalize these requirements in two Mission Orders that are being


                                                                                           22
                                                                            APPENDIX II


       drafted, one on Environmental Procedures, and the other on Activity Approval
       Processes. We expect these to be finalized by the end of March 2010.

Recommendation 2: We recommend USAID/Kosovo establish and implement
procedures to require implementing partners to respond to environmental assessment
requirements in their proposal, detailing staff and budget necessary to address
environmental assessment and monitoring concerns associated with the project.

       USAID/Kosovo Response: USAID/Kosovo accepts and agrees with this
       recommendation, except that we suggest limiting this requirement only to those
       new procurements in which the Initial Environmental Examination is Threshold
       Decision of Negative Determination with Conditions or Positive Determination.
       We have already begun to require this for all new procurements in which the
       Initial Environmental Examination is Threshold Decision of Negative
       Determination with Conditions or Positive Determination. We will institutionalize
       these requirements in two Mission Orders that are being drafted, one on
       Environmental Procedures, and the other on Activity Approval Processes. We
       expect these to be finalized by the end of March 2010.

Recommendation 3: We recommend USAID/Kosovo establish and implement
procedures to require activity managers to include environmental assessment and
monitoring requirements in agreements and contracts signed by implementing partners.

       USAID/Kosovo Response: USAID/Kosovo accepts and agrees with this
       recommendation, except that we suggest limiting this requirement only to those
       agreements and contracts for which the Initial Environmental Examination is
       Threshold Decision of Negative Determination with Conditions or Positive
       Determination. We have already begun to require this for all new procurements
       in which the Initial Environmental Examination is Threshold Decision of Negative
       Determination with Conditions or Positive Determination. We will review existing
       grants and contracts that have Initial Environmental Examinations that are
       Threshold Decisions of Negative Determination with Conditions or Positive
       Determination to determine if they need to be amended to include environmental
       assessment and monitoring requirements, and will work with our agreements and
       contracting officers to make the necessary amendments by April 2010. We will
       institutionalize these requirements in two Mission Orders that are being drafted,
       one on Environmental Procedures, and the other on Activity Approval Processes.
       We expect these to be finalized by the end of March 2010.

Recommendation 4: For activities with Threshold Decisions of Negative Determination
with Conditions and Positive Determination, we recommend that USAID/Kosovo include
a clause in its contracts and assistance agreements to require distinct language in the
implementing partners’ annual work plans stating how the partner will address
environmental baseline data requirements as outlined in the Initial Environmental
Examination and/or as required for the Environmental Review Documents.

       USAID/Kosovo Response: USAID/Kosovo accepts and agrees with this
       recommendation. We will immediately begin to include this in all new grants and
       contracts in which the Initial Environmental Examination is Threshold Decision of
       Negative Determination with Conditions or Positive Determination. We will
       institutionalize these requirements in two Mission Orders that are being drafted,


                                                                                       23
                                                                           APPENDIX II


       one on Environmental Procedures, and the other on Activity Approval Processes.
       We expect these to be finalized by the end of March 2010.

Recommendation 5: We recommend USAID/Kosovo establish procedures to require
implementing partners to provide activity managers with Environmental Mitigation and
Monitoring Plans as part of their annual work plans.

       USAID/Kosovo Response: USAID/Kosovo accepts and agrees with this
       recommendation, except that we suggest limiting this requirement only to work
       plans for those grants and contracts for which the Initial Environmental
       Examination is Threshold Decision of Negative Determination with Conditions or
       Positive Determination. We will immediately begin to require this for all new
       grants and contracts in which the Initial Environmental Examination is Threshold
       Decision of Negative Determination with Conditions or Positive Determination.
       We will institutionalize these requirements in two Mission Orders that are being
       drafted, one on Environmental Procedures, and the other on Activity Approval
       Processes. We expect these to be finalized by the end of March 2010.

Recommendation 6: We recommend that USAID/Kosovo formally request that the
Europe and Eurasia Bureau establish a full-time, regionally based regional
environmental advisor to reduce the risk of project delays and environmental impacts in
Kosovo.

       USAID/Kosovo Response: USAID/Kosovo full agrees and supports this
       recommendation. An Action Memorandum making this request was sent to
       Roberta Mahoney, Acting Assistant Administrator for Europe and Eurasia on
       February 10, 2010. A copy of that Action Memorandum is attached. Therefore,
       we consider this recommendation to be closed.

Recommendation 7: We recommend that USAID/Kosovo formalize the Environmental
Working Group to identify its objective as a mechanism to share best practices and build
host country capacity, and to define processes, responsibilities, internal controls,
meeting frequency, and membership.

       USAID/Kosovo Response: We are pleased that the auditors recognized
       USAID/Kosovo’s Environmental Working Group as a best practice. We will
       formalize the Environmental Working Group in a Mission Order that is being
       drafted on Environmental Procedures, which we expect to be finalized by the end
       of March 2010.

Recommendation 8: We recommend that the USAID/Kosovo Environmental Working
Group develop a list and extend membership to appropriate Kosovo academia, Kosovo
Government representatives, and members of local institutions to build host country
environmental capacity.

       USAID/Kosovo Response: We are pleased that the auditors recognized
       USAID/Kosovo’s Environmental Working Group as a best practice. We will
       develop a list and extend membership to appropriate Kosovo academia, Kosovo
       Government representatives and members of local institutions by the end of
       February 2010. Moreover, we will formalize the expanded membership of the
       Environmental Working Group in a Mission Order that is being drafted on


                                                                                       24
                                                                 APPENDIX II


Environmental Procedures, which we expect to be finalized by the end of March
2010.




                                                                            25
                                                                   APPENDIX III


                  Funding Levels for Projects Reviewed

                                      Awarded Amount*      Obligated Amount*
          Activity Name
                                       (as of 9/30/09)       (as of 9/30/09)

Kosovo Private Enterprise Project            $17,837,249           $9,915,000

Kosovo Energy Corporation
                                              12,749,382           12,749,382
Network and Supply Project

Small Infrastructure for Education
                                               5,000,000            5,000,000
in Kosovo

Small infrastructure for Water and
                                               5,000,000            5,000,000
Sanitation in Kosovo

RAE Economic, Social, Transition,
Advocacy and Resettlement                      2,400,000            1,700,000
Reintegration (RESTART)

Kosovo Maternal and Child Health
                                               2,909,697            1,300,000
Program

Initiating Positive Change                    10,000,000            6,552,166

Kosovo Water Institutional Sector
                                               7,313,677            4,500,000
Reform (K-WISER)

Municipal Integration and Support
                                               7,848,633            7,848,633
Initiative

Total                                        $71,058,638          $54,565,181


* Funding amounts were not audited.




                                                                               26
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
